                 National Aeronautics and Space Administration

                     OFFICE OF INSPECTOR GENERAL




                  Space Communications and
                Navigation: NASA’s Management
                      of the Space Network




                              OFFICE OF AUDITS
                                  AUDIT REPORT
IG-14-018                        APRIL 29, 2014
(A-13-011-01)
Final report released by:




Paul K. Martin
Inspector General




Acronyms

FY           Fiscal Year
GAO          Government Accountability Office
KDP          Key Decision Point
NPR          NASA Procedural Requirements
OIG          Office of Inspector General
SCaN         Space Communications and Navigation
SGSS         Space Network Ground Segment Sustainment
TDRS         Tracking and Data Relay Satellite


                                                        REPORT NO. IG-14-018
APRIL 29, 2014




                                                                                               OVERVIEW

           SPACE COMMUNICATIONS AND NAVIGATION: NASA’S
                 MANAGEMENT OF THE SPACE NETWORK
                                                                                                 The Issue

   The Space Network Project – part of the Space Communications and Navigation (SCaN)
   Program – provides continuous connectivity with NASA spacecraft operating in low
   Earth orbit, including the International Space Station, the Hubble Space Telescope, and
   the Van Allen Probes.1 Other Government agencies, including the Department of
   Defense and the National Science Foundation, as well as commercial entities also rely on
   the Space Network to communicate with various spacecraft. During fiscal year
   (FY) 2014, the Space Network
   plans to perform more than                Flow of Data to and from the Space Network
   175,000 hours of service to
   support 25 to 30 missions, and
   without these services space
   hardware worth tens of
   billions of dollars would be
   little more than orbital debris,
   unable to communicate with
   Earth.

   Currently, the Space Network
   consists of a constellation of
   nine geosynchronous tracking
   and data relay satellites
   (TDRS) and three ground
   stations – two at the White
   Sands Complex near Las
                                    Source: NASA Office of Inspector General (OIG) representation of Project
   Cruces, New Mexico, and a        data.
                  2
   third in Guam. The Network
   operates by sending data from a ground station to a TDRS, which then relays the data to
   the designated spacecraft. Return data from the spacecraft is relayed through a TDRS to

   1
       The Van Allen Probes are robotic spacecraft that measure the properties of charged particles that
       comprise the Earth’s radiation belts.
   2
       A geosynchronous orbit is one in which the satellite is always in the same position with respect to the
       rotating Earth. The satellites orbit at an elevation of approximately 35,790 kilometers to allow time for
       one orbit equal to the period of rotation of the Earth (23 hours, 56 minutes, 4.09 seconds). By orbiting at
       the same rate in the same direction as Earth, the satellites appear stationary – synchronous with respect to
       the rotation of the Earth.



REPORT NO. IG-14-018
                                                                                         OVERVIEW



     a ground station, which in turn sends the data to a location designated by the spacecraft
     owner or customer (as shown in the figure). As a spacecraft moves in orbit around the
     Earth, its signal moves from one TDRS to another.

     NASA has provided these tracking and communications services for more than 30 years,
     and many of its satellites and ground systems are aging and increasingly difficult to
     repair. Moreover, the recent decision to extend International Space Station operations
     until at least 2024 will add to the demand for communications provided by the Network.

     To ensure continued service for existing and planned missions, the Space Network
     requires six operating TDRSs and at least one spare TDRS in on-orbit storage, as well as
     the three supporting ground terminals. Recognizing the Network’s maintenance,
     replenishment, and modernization needs, over the past 7 years the SCaN Program has
     initiated the TDRS Replenishment Project and the Space Network Ground Segment
     Sustainment (SGSS) Project. The TDRS Replenishment Project purchased three
     third-generation TDRSs – identified alphabetically as TDRSs K, L, and M – to replace
     aging satellites. The SGSS Project focuses on replacing aging hardware and data systems
     in the Space Network’s ground systems. Failure to replace these aging satellites and
     systems in a timely manner increases the risk that the Space Network will be unable to
     provide adequate communication and navigational services to its customers and could
     lead to the loss of critical mission data, or in the worst case, loss of an entire mission.

     In this audit, we assessed how the Space Network Project was managing risks and
     adjusting capabilities to meet cost, schedule, and performance goals. Specifically, we
     examined whether NASA has effectively (1) managed key Space Network system
     upgrade projects within cost and schedule goals and (2) planned for current and future
     funding requirements. Details of the audit’s scope and methodology are in Appendix A.

     Results

     We found that NASA’s Space Network faces significant challenges. Specifically, key
     components necessary for NASA to continue providing Space Network communication
     services are not meeting planned cost, schedule, and performance goals. Taken together,
     these delays and cost growth increase the risk that the Space Network will be unable to
     continue to provide adequate communication services to NASA missions and its
     customers. In addition, because of budget reductions and other lost revenue, beginning in
     FY 2016, the Space Network will not have sufficient funding to meet all planned
     commitments. Finally, as we had in a prior audit, we found that NASA has not kept
     up-to-date the rate it charges customers for use of the Space Network and, as a result,
     may be absorbing costs for services used by other Federal agencies and commercial
     customers.




ii                                                                           REPORT NO. IG-14-018
OVERVIEW



   Key Space Network Components Are Not Meeting Cost, Schedule, and Performance
   Goals. By 2016, three of the TDRSs NASA is currently using to communicate with and
   track spacecraft will reach the end of their expected operational lives. Moreover, a
   NASA study indicates that one of the spare satellites the Agency has in on-orbit storage
   is already operating 15 years past its design life and could fail as soon as 2014. However,
   NASA currently has only two new third-generation satellites – TDRSs K and L – in orbit
   to replace four aging satellites. Although NASA had planned to launch TDRS-M as early
   as December 2015, it now expects to delay that launch by as many as 6 years because it
   lacks funding to procure a launch vehicle. Further, the Agency’s decision not to exercise
   the option to purchase a fourth satellite – TDRS-N – at a favorable price will result in
   NASA paying considerably more for a replacement satellite in the future.

   In addition, the SGSS Project may cost $329 million, or 38 percent, more than NASA’s
   baseline commitment agreement of $862 million and its schedule for completion likely
   delayed by more than 1.5 years. The cost overrun will require SGSS Project managers to
   reassess their original requirements and the 1.5-year schedule slip will necessitate Space
   Network officials to reassess, reprioritize, and mitigate the Network’s obsolescence risks
   for a longer period than planned – actions that will require additional funding. Moreover,
   although the amount of operations and maintenance savings NASA expected to achieve
   through implementation of the SGSS Project is still unclear, the savings will be delayed
   for several years.

   Shortsighted Planning Resulted in Inadequate Funding for the Space Network.
   Because of budget reductions and the loss of other expected revenue, in FY 2016, the
   Space Network will not have sufficient funding to meet all planned commitments for
   services. Beginning with FY 2014, the SCaN Program reduced the Space Network’s
   proposed operating budget to $85 million from $115 million the previous year.
   Moreover, although NASA agreed to provide free access to Space Network services for
   some customers beginning in FY 2014 in exchange for their contributions to the design
   and development of TDRSs K and L several years earlier, the Agency failed to
   adequately plan for the resulting approximately $70 million per year in lost revenue.
   Consequently, the Space Network Project has a projected $63 million budget shortfall in
   FY 2016 and even larger estimated shortfalls in subsequent years.

   Other Matters. Since 2009, between 9 and 13 external customers have used Space
   Network assets each fiscal year and reimbursed NASA between $2.1 and $3.1 million. In
   September 2010, we reported that NASA had not updated the rates it charged customers
   for use of the Space Network for more than 4 years.3 Following our audit, NASA agreed
   to update the rates annually. However, in this audit we found that NASA had not updated
   the rates for FY 2014 and, as of March 2014, continued to charge FY 2013 rates that may
   not accurately capture current operating costs.



   3
       NASA OIG, “Review of NASA’s Tracking and Data Relay Satellite System” (IG-10-023, September 21,
       2010).



REPORT NO. IG-14-018                                                                                     iii
                                                                                                    OVERVIEW



     Conclusion. NASA’s Space Network is a critical component of the Agency’s space
     communications and navigation capability while providing essential services to other
     Government and commercial customers. The success of the Network depends upon a
     complex system of satellites and ground terminals, and ensuring continued service for
     existing and planned missions requires maintenance, replenishment, and modernization
     of both the TDRSs and ground stations.

     The Space Network needs six operating satellites and a spare TDRS in on-orbit storage to
     provide the needed level of service.4 While the Network currently has nine TDRSs in
     orbit (six active, two in storage, and one in testing), four of these satellites have been in
     orbit for 18 or more years and are rapidly reaching the end of their useful lives.
     Moreover, within the next 4 years, three other satellites will have been in operation for
     15 years or longer. Failure to replace these aging satellites in a timely manner increases
     the risk that the Space Network will be unable to provide adequate communication and
     navigational services to support its customers, placing missions at risk.

     Similarly, the Space Network’s ground terminals are expensive to maintain and rapidly
     wearing out. As such, the ability of the Network to continue to provide reliable
     communications services to customer missions hinges on successful implementation of
     the SGSS Project that will replace aging ground hardware and expensive-to-maintain
     equipment. Given the central role the SGSS Project plays in the Agency’s continued
     ability to provide space communications and navigation capabilities, it is imperative that
     NASA develop a realistic and achievable plan to address the $329 million cost overage
     and 1.5-year schedule slippage in an effort to meet the SGSS Project’s cost, schedule, and
     performance goals.

     Management Action

     To ensure NASA meets resource requirements for the Space Network Project, we
     recommended the Associate Administrator for Human Exploration and Operations

           1. require the SGSS Project Office to (a) revise its cost estimate and (b) based on
              those results, adjust the Project baseline and Agency baseline commitment as
              necessary;

           2. report the appropriate baseline commitment and/or status to Congress;

           3. ensure that the SGSS Project passes a termination review prior to any
              rebaselining; and

           4. examine options to increase funding for the Space Network, including acquiring
              funds from other less critical priorities within the Agency.


     4
         Once the SGSS Project is complete, the Network will need seven operating TDRS.



iv                                                                                        REPORT NO. IG-14-018
OVERVIEW



   In response to our draft report, the Associate Administrator for Human Exploration and
   Operations concurred with recommendations 1, 2, and 4, stating that NASA is evaluating
   a revised cost and schedule estimate for the SGSS Project against anticipated budget and
   program requirements and will adjust the Project’s baseline and report to Congress based
   on the results of that evaluation. In addition, the Associate Administrator indicated that
   the Program will continue to seek reimbursable customers and that NASA will balance
   resources across its programs and obligations to assure effective, continuous Space
   Network operations and sustainment. We consider the actions the Associate
   Administrator proposes responsive and will close the recommendations upon their
   completion and verification.

   The Associate Administrator partially concurred with recommendation 3 to ensure the
   SGSS Project passes a termination review prior to rebaselining. He indicated that NASA
   is working to determine whether it should manage the SGSS Project as a development or
   sustainment activity and will factor that determination into the decision on the way
   forward. He also indicated that the SCaN Program will follow Agency guidelines for
   rebaselining. However, he said that while contracts and discrete projects may be
   terminated if warranted, maintenance and upgrade of the Space Network ground system
   is not optional. While we agree that given its importance the Agency must maintain and
   upgrade the Space Network ground system, we believe a termination review should be
   conducted irrespective of whether NASA decides to manage the Project as a
   “development” or “sustainment” activity to ensure the Agency’s senior leadership and
   external stakeholders are fully aware of the factors that influenced the Project’s cost,
   schedule, and performance issues. Accordingly, we consider the recommendation
   unresolved.

   Finally, in order to reflect current operating costs and maximize revenue potential, we
   recommended the Deputy Associate Administrator for SCaN document the cost factors
   and formulas for reimbursable rates and ensure those rates are reevaluated and adjusted
   as necessary on an annual basis. The Deputy Associate Administrator concurred with our
   recommendation and published new rates for FY 2014 effective April 11, 2014.
   However, NASA has not established a process to document cost factors and formulas and
   ensure annual adjustments. Accordingly, we do not consider management’s actions fully
   responsive and the recommendation remains unresolved.

   We incorporated management’s technical comments on our draft into the final report as
   appropriate. Management’s full response to the draft report is reprinted in Appendix B.




REPORT NO. IG-14-018                                                                            v
APRIL 29, 2014




                                                        CONTENTS

   INTRODUCTION
      Background _________________________________________ 1
      Objectives __________________________________________ 7

   RESULTS
      Key Space Network Components are Not Meeting Cost,
        Schedule, and Performance Goals ______________________ 8
      Shortsighted Planning Resulted in Inadequate Funding for the
        Space Network ___________________________________ 17
      Other Matters _______________________________________ 21

   APPENDIX A
      Scope and Methodology _______________________________ 22
      Review of Internal Controls ____________________________ 23
      Prior Coverage ______________________________________ 23

   APPENDIX B
      Management Comments ______________________________ 24

   APPENDIX C
      Report Distribution ___________________________________ 27




REPORT NO. IG-14-018
APRIL 29, 2014




                                                                                      INTRODUCTION


Background

   NASA uses a combination of ground and space-based assets to relay information
   continuously between Earth and spacecraft owned by NASA, other Federal agencies, and
   commercial entities. Specifically, the Agency’s Space Communications and Navigation
   (SCaN) Program provides space communication and navigation capabilities through three
   communications networks – the Deep Space Network, the Near Earth Network, and the
   Space Network. The Deep Space Network provides a continuous communications
   infrastructure for NASA robotic missions like Voyager, which is exploring the furthest
   points in our solar system. The Near Earth Network services missions that require
   periodic contact in certain orbital and suborbital locations, including low Earth orbit;
   lunar orbit; and highly elliptical orbits, such as the Lunar Reconnaissance Orbiter. The
   Space Network provides continuous connectivity with spacecraft operating in low Earth
   orbit, including the International Space Station, the Hubble Space Telescope, and the Van
   Allen Probes.5 Other Government agencies, including the Department of Defense and the
   National Science Foundation, and commercial entities also rely on the Space Network to
   communicate with various spacecraft.

   Without SCaN services, space hardware worth tens of billions of dollars would be little
   more than orbital debris unable to communicate with Earth. Moreover, a failure in any
   part of these networks could lead to the loss of critical data or, in the worst-case scenario,
   an entire mission. Accordingly, all three networks require maintenance, replenishment,
   modernization, and expansion of capacity to ensure continued service for existing and
   planned missions.

   This audit, the first of five planned by the NASA Office of Inspector General (OIG) on
   the SCaN Program and its portfolio of projects, focuses on the Space Network.

   The Space Network. NASA began assembling the Space Network, originally known as
   the Tracking and Data Relay Satellites System, in the early 1970s. Currently, the Space
   Network consists of a constellation of nine geosynchronous tracking and data relay
   satellites (TDRS) and three ground stations – two at the White Sands Complex near
   Las Cruces, New Mexico, and a third in Guam.6 The Space Network also operates an
   antenna at the Australian TDRS System Facility in Dongara, Australia, which it uses as a
   5
       The Van Allen Probes are robotic spacecraft measuring the properties of charged particles that comprise
       the Earth’s radiation belts.
   6
       A geosynchronous orbit is one in which the satellite is always in the same position with respect to the
       rotating Earth. The satellite orbits at an elevation of approximately 35,790 kilometers to allow time for
       one orbit equal to the period of rotation of the Earth (23 hours, 56 minutes, 4.09 seconds). By orbiting at
       the same rate in the same direction as Earth, the satellite appears stationary (synchronous with respect to
       the rotation of the Earth).



REPORT NO. IG-14-018                                                                                                 1
                                                                                                        INTRODUCTION



    backup to Guam. The Space Network will expand its operations with a ground station in
    Blossom Point, Maryland, which SCaN anticipates will be operational by early 2017.

    The Space Network operates by sending data from a ground station to a TDRS, which
    then relays the data to the designated spacecraft. Return data from the spacecraft is
    relayed through a TDRS to a ground station, which in turn sends the data to a location
    designated by the spacecraft owner or customer. As a spacecraft moves in orbit around
    the Earth, its communication signal moves from one TDRS to another.

    To be fully operational and cover the entire planet, the Space Network requires six active
    TDRSs in orbit at any one time. In addition, NASA keeps at least one other operational
    TDRS in on-orbit storage in the event an active satellite fails (see Figure 1). During
    fiscal year (FY) 2014, the Space Network plans to perform more than 175,000 hours of
    service to support 25 to 30 missions.

              Figure 1. The Space Network’s Communication System (as of January 2014)




                                                 Key
            ATF – Australian TDRS System Facility                     BPRS – Blossom Point Relay Station
            IOC – Initial Operational Capability                      W – West longitude location
            WSC – White Sands Complex
    Note: Super-sync is a graveyard or disposal orbit that lies at least 350 kilometers above geosynchronous orbit. NASA
          places TDRSs in this orbit at the end of their operational lives to lower the probability of collisions with
          operational spacecraft.
    Source: NASA.



2                                                                                              REPORT NO. IG-14-018
INTRODUCTION



   Space Network Configuration. The first ground terminal at the White Sands Complex
   became operational in April 1983 with the launch of TDRS-1. As NASA launched more
   of the TDRS fleet, the second White Sands ground terminal went live in December 1994
   to provide redundancy and update the original ground station’s 1970s technology. The
   Space Network completed construction on the ground terminal in Guam in 1998 to
   provide better coverage over the Indian Ocean region, and started work on the ground
   terminal at Blossom Point in 2011.

   Since the Space Network’s inception, NASA has launched twelve TDRSs in three
   phases.7 The first-generation satellites (TDRSs 1–7) were built with a 10-year design life
   by TRW, Inc., (now Northrop Grumman Space Technology) and launched between 1983
   (TDRS-1) and 1995 (TDRS-7).8 The second-generation satellites (TDRSs 8–10) were
   built by Hughes Space and Communications (now Boeing Satellite Systems) and
   launched between 2000 and 2002. With the launch of TDRS-11 in January 2013 and
   TDRS-12 in January 2014, NASA added two third-generation satellites to the Space
   Network. Boeing Satellite Systems (Boeing) built TDRSs 11 and 12.

   The second-generation satellites improved the Space Network’s communication
   capabilities by increasing the bandwidth available to users of the Network. Additionally
   their design life was increased to operate 15 years, including 4 years of on-orbit storage
   during which they are not in active service but available if needed to replace another
   satellite. The primary difference between the second- and third-generation satellites is
   that for third-generation satellites the processing of the communications signal occurs on
   the ground rather than on the satellite, allowing for a more secure system for transmitting
   command communications. In addition, unlike earlier versions, third-generation TDRSs
   were designed to be compatible with either an Atlas or Delta launch vehicle to maximize
   launch opportunities.9

   Aging TDRSs. Of the twelve TDRSs NASA has launched over the past 31 years, eight
   are currently available for service – four first-generation satellites (TDRSs 3, 5, 6, and 7),
   three second-generation satellites (TDRSs 8, 9, and 10), and the first of the
   third-generation, TDRS-11.10 As of March 2014, NASA is using six of these satellites to
   relay communications between spacecraft and Earth (TDRSs 5, 6, 7, 8, 9, and 10) and
   two are in on-orbit storage (TDRSs 3 and 11), available if needed to replace one of the
   active satellites.



   7
        Before launch, NASA refers to the TDRS by letter. Once accepted by the Space Network, NASA
        renames the satellites with a number. For example, after launch and acceptance TDRS-A became
        TDRS-1.
   8
        Lost in the 1986 Space Shuttle Challenger accident, TDRS-2 never made it to orbit.
   9
        Any other launch vehicle could require changes to integrate the satellite with the vehicle and prepare it
        for launch.
   10
        NASA expects the second third-generation TDRS (launched January 2014) to join the operational fleet
        before the end of FY 2014.



REPORT NO. IG-14-018                                                                                                3
                                                                                         INTRODUCTION



    The satellites have generally outlasted design expectations. For example, TDRS-1 was in
    orbit for 26 years before being decommissioned in 2009. Of the satellites NASA
    currently has available to relay data, four (TDRSs 3, 5, 6, and 7) have been in orbit for
    more than 18 years, have experienced various failures and system degradation, and are
    rapidly reaching the end of their useful lives. See Table 1 for a complete list of TDRSs
    and their status.

                              Table 1. TDRS Spacecraft by Launch Date
                                                                                 Age of Spacecraft
          Spacecraft                                     Spacecraft Name         at Decommission
            Name               Launch Date               After Acceptance        or as of January
        Before Launch                                                                  2014
                                        First-Generation TDRS
          TDRS-A               April 4, 1983               TDRS-1a                    26 yearsa
                                                          (lost in the
          TDRS-B             January 28, 1986                                            N/A
                                                      Challenger accident)
          TDRS-C            September 29, 1988             TDRS-3b                    25 years
          TDRS-D              March 13, 1989               TDRS-4a                    23 yearsa
          TDRS-E              August 2, 1991               TDRS-5c                    22 years
          TDRS-F             January 13, 1993              TDRS-6c                    21 years
          TDRS-G               July 13, 1995               TDRS-7c                    18 years
                                      Second-Generation TDRS
          TDRS-H               June 30, 2000               TDRS-8                     13 years
          TDRS-I              March 8, 2002                TDRS-9                     11 years
          TDRS-J             December 4, 2002              TDRS-10                    11 years
                                         Third-Generation TDRS
          TDRS-K             January 30, 2013              TDRS-11b                     1 year
          TDRS-L             January 23, 2014              TDRS-12d                     0 year
                                         e
          TDRS-M                  2020s                    TDRS-13                       N/A
    a
      TDRS-1 was decommissioned in October 2009 while TDRS-4 was decommissioned in December 2011.
    b
      TDRS-3 and 11 are in on-orbit storage until needed for service.
    c
      TDRSs 5, 6, and 7 are operating beyond their design life.
    d
      TDRS-L is in on-orbit testing and will be renamed TDRS-12 upon acceptance by the Space Network.
    e
      NASA has not established a confirmed launch date.
    Source: NASA.

    The Future of the Space Network. Over the past 7 years, the SCaN Program has
    initiated the TDRS Replenishment Project and the Space Network Ground Segment
    Sustainment (SGSS) Project. The TDRS Replenishment Project purchased three
    third-generation TDRSs – K, L, and M. The SGSS Project focuses on replacing aging
    hardware and data systems in the Space Network’s ground systems.

    TDRS Replenishment Project. To avoid a system failure or loss of critical capacity,
    NASA has purchased new TDRSs to replace the satellites approaching the end of their
    useful lives. The TDRS Project Office, located at Goddard Space Flight Center
    (Goddard), is managing this effort. The Agency retired two first-generation satellites


4                                                                                REPORT NO. IG-14-018
INTRODUCTION



   (TDRSs 1 and 4) in 2009 and 2011, and the remaining four first-generation satellites still
   in orbit (TDRSs 3, 5, 6, and 7) are showing signs of age-related battery and electronics
   failures. NASA has predicted that without replacement satellites the Space Network will
   not have sufficient capacity to service customer missions adequately by 2016. Similarly,
   a 2013 Aerospace Corporation Study concluded that in order for the Space Network to
   continue to support anticipated communications, NASA may need to launch TDRS-M by
   2016 and require an additional satellite in orbit by 2024.

   NASA awarded a $696 million fixed-price incentive contract for TDRSs K and L to
   Boeing in December 2007, with options to purchase two additional satellites (TDRSs M
   and N).11 See Figure 2 for an illustration of TDRS-L.

                                       Figure 2. Illustration of TDRS-L




               Source: NASA.




   11
        The contract also included modifications to the Space Network’s ground systems to support the
        third-generation spacecraft.



REPORT NO. IG-14-018                                                                                    5
                                                                                                 INTRODUCTION



    In November 2011, NASA exercised the option to purchase TDRS-M for $320 million,
    but due to budget constraints let lapse the option to purchase TDRS-N for $262 million.
    NASA launched TDRS-K (now TDRS-11) in January 2013, and in December 2013
    successfully integrated the satellite into the Space Network before placing it into on-orbit
    storage. NASA launched TDRS-L in January 2014. The TDRS Project Office plans to
    perform on-orbit testing on the spacecraft for several months before the Space Network
    accepts delivery before the end of FY 2014 at which time it will be renamed TDRS-12
    and placed in on-orbit storage until needed to replace one of the older TDRSs currently in
    operation.

    Boeing expects to finish integration and testing of TDRS-M in June 2015. NASA had
    planned to launch TDRS-M as early as December 2015, but in 2013 was forced to delay
    the launch until the early 2020s due to a lack of funding to purchase a launch vehicle.12
    According to Agency officials, NASA needs all three third-generation satellites in orbit
    to ensure continued service to customer missions as the remaining first-generation
    satellites fail. With the third-generation satellites in place, NASA expects to have
    adequate capacity until the second-generation TDRS begin retiring in the early 2020s, at
    which time additional satellites will be needed to keep the Space Network functioning at
    full capacity.

    SGSS Project. The SGSS Project is replacing aging ground hardware and
    expensive-to-maintain equipment and systems at the Space Network’s ground stations.
    The SCaN Program manages the Project through the SGSS Project Office at Goddard.13
    The Project is planning to replace nearly all the electronics and software at the ground
    stations, including high-power transmitters and receivers on the ground antennas, low-
    noise amplifiers, digital signal processors, fleet management software, and tracking
    software. Integrating high-power electronics, digital switchgear, and controlling software
    into a functional, reliable, and low-cost system is a major goal of the SGSS Project.
    Once the Project is complete, all ground stations will be able to support first, second, and
    third-generation TDRS, something only the White Sands Complex currently is able to do.
    Further, the SGSS Project will expand the Space Network with a new fully operational
    ground terminal at Blossom Point, Maryland.

    NASA’s baseline budget to develop the SGSS Project is $862.6 million. This baseline
    represents the Agency’s commitment to the Office of Management and Budget and
    Congress regarding the overall cost of the Project.




    12
         Based on a December 2013 contract award in support of a science mission, the estimated cost of an
         Atlas V launch vehicle is $160 million.
    13
         SGSS is considered an independent development project within the SCaN Program until the upgraded
         ground systems become operational, at which time the Space Network will assume responsibility for the
         SGSS Project.



6                                                                                        REPORT NO. IG-14-018
INTRODUCTION



   To move the SGSS Project forward, NASA awarded a cost-plus-award-fee contract in
   June 2010 to General Dynamics C4 Systems (General Dynamics) for approximately
   $495 million (excluding fee) with a planned delivery date not to exceed September 2015.
   However, as of January 2014, the contract value has increased to $556 million (excluding
   fee) and the delivery date has slipped almost 2 years to June 2017.

   The SGSS Project contemplates three remaining phases for SGSS completion:
   implementation, integration and test, and deployment and transition. During the
   implementation phase, NASA will procure software and hardware as well as develop
   custom software and hardware to meet the detailed requirements of the Space Network.
   In the integration and test phase, the Agency will integrate and test the components on a
   complete system at the General Dynamics facility. During the deployment and transition
   phase, NASA and General Dynamics will deploy the tested and integrated systems to the
   ground stations and transition operations to the SGSS systems. NASA expects the
   upgraded system to be more reliable and less costly to operate and maintain than the
   existing Space Network system.

   Prior OIG Work. In 2010, we examined whether NASA had taken steps to ensure that
   development of TDRSs K and L were on schedule, within budget, and met technical
   requirements and had identified and sufficiently mitigated acquisition risks. We also
   examined NASA’s contract administration and reviewed whether other users of the Space
   Network properly reimbursed NASA for services provided to them.14

   We reported that development of TDRSs K and L was generally on schedule and meeting
   the planned budget. However, we found that NASA had not revised the rates it charged
   Space Network customers since 2006, NASA officials did not know what factors had
   been used to formulate the 2006 rates, and internal controls for continuity of operations
   were not established. In the audit, we made several recommendations to remedy these
   issues. NASA management concurred with our recommendations, including agreeing to
   update the methodology used to calculate reimbursable rates to ensure they are
   reasonable and to revise the rates annually.

Objectives

   In this audit, we assessed how the Space Network Project was managing risks and
   adjusting capabilities to meet cost, schedule, and performance goals. Specifically, we
   examined whether NASA has effectively (1) managed key Space Network system
   upgrade projects within cost and schedule goals and (2) planned for current and future
   funding requirements. Details of the audit’s scope and methodology are in Appendix A.




   14
        NASA OIG, “Review of NASA’s Tracking and Data Relay Satellite System” (IG-10-023,
        September 21, 2010).



REPORT NO. IG-14-018                                                                           7
                                                                                                           RESULTS




                                  KEY SPACE NETWORK COMPONENTS ARE NOT
                                             MEETING COST, SCHEDULE, AND
                                                     PERFORMANCE GOALS

               Key components necessary for NASA to continue to provide adequate Space
               Network communication services are not meeting planned cost, schedule, and
               performance goals. Specifically, we found that because the Agency has not procured
               a launch vehicle in a timely manner, it will be unable to launch TDRS-M until
               6 years later than originally planned. Further, the Agency’s decision not to exercise
               the option to purchase TDRS-N at a favorable cost under its contract with Boeing
               will result in NASA paying considerably more for a replacement satellite in the
               future. In addition, the SGSS Project may cost $329 million more than NASA’s
               baseline commitment agreement of $862 million and its schedule for completion
               delayed more than 1.5 years. This cost and schedule growth is primarily the result of
               General Dynamics significantly underestimating the complexity of the software
               needed to meet system requirements and NASA’s acceptance of the contractor’s
               assumptions. Taken together, these delays and cost growth increase the risk that the
               Space Network will be unable to continue to provide adequate communication
               services.

Additional Time and Money Needed to Maintain Constellation of
  TDRS Spacecraft

    The Space Network needs six operating TDRSs and a spare in on-orbit storage to support
    its customers at the current level of service.15 While the Network currently has nine
    TDRSs in orbit (six in service, two in on-orbit storage, and one in testing), four of these
    satellites have been in orbit for 18 or more years and are rapidly reaching the end of their
    useful lives (TDRSs 3, 5, 6, and 7). Moreover, within the next 4 years three other
    satellites will have been in orbit for 15 years or longer (TDRSs 8, 9, and 10). Failure to
    replace these aging satellites in a timely manner increases the risk that the Space Network
    will be unable to continue to provide adequate communication and navigational services
    to support its customers at the current level.

    In December 2007, NASA negotiated a fixed-price contract with Boeing to build
    TDRSs K and L – renamed TDRSs 11 and 12, respectively, following launch and
    acceptance – with options to build TDRSs M and N. The Agency exercised the option
    for TDRS-M at a cost of $320 million, but citing inadequate funding opted not to buy
    TDRS-N for $262 million. As shown in Figure 3, an Agency study predicts at least six
    TDRS will continue to operate through 2015. However, by 2016 three satellites on which
    NASA is currently relying – TDRSs 5, 6, and 7 – will reach the end of their expected

    15
         When the Blossom Point Terminal becomes operational, the Space Network will expand to seven TDRS
         providing customer service for as long as the Constellation’s health permits it to meet customer demand.



8                                                                                          REPORT NO. IG-14-018
RESULTS



   operational lives. Moreover, the study indicates that TDRS-3, which is already operating
   15 years past its design life, could fail as soon as 2014. However, NASA has only
   TDRSs 11 and 12 (TDRS-L) to replace these four satellites. Although NASA had
   planned for TDRS-M to be in orbit as early as December 2015, it is now reporting it may
   delay launch of this satellite by as many as 6 years because it lacks funding to procure a
   launch vehicle (estimated to cost upwards of $160 million). Further, because the Agency
   elected not to exercise the option to purchase TDRS-N from Boeing at the favorable
   fixed-price in its contract with the company, it will likely have to expend tens of millions
   of dollars more than the option price to acquire its next satellite.

                   Figure 3. Status of TDRS Fleet’s Anticipated Availability to Meet
                                     Space Network Requirements

           TDRS      TDRS      TDRS       TDRS   TDRS      TDRS       TDRS      TDRS    TDRS    TDRS
             3         5         6          7      8         9         10       11(K)   12(L)    M
    2014      ▲




                                                                                                       Meets
    2015

    2016               ▲         ▲         ▲




                                                                                                       - - - -- - - - - -Does Not Meet - - - - - - - - -
    2017               ▲
    2018               ▲
    2019

    2020

    2021

    2022                                                     ▲
    2023

    2024                                             ▲
    2025                                             ▲
                                                     Key
                           ▲ Predicted end of life         Full capability available

   Source: OIG Analysis of Space Network Data.




REPORT NO. IG-14-018                                                                                                                                       9
                                                                                                                 RESULTS



     The third-generation TDRSs are at different stages of development. We assess each
     below.

     TDRS-K (11). Boeing was ready to launch TDRS-K by the contractually required
     December 2012 date. However, NASA delayed the launch until January 2013 to allow
     for completion of an investigation on issues observed during launch of a U.S. Air Force
     satellite on an Atlas V in October 2012. As a result, Boeing stored TDRS-K for an extra
     month beyond the contract date, for which the company claimed $1 million in costs.16
     Following launch, testing of TDRS-K (now TDRS-11) was completed in August 2013, at
     which time NASA accepted the satellite. In December 2013, NASA successfully
     integrated the satellite into the Space Network and will keep TDRS-11 in on-orbit storage
     until needed.

     TDRS-L (12). Boeing completed development of TDRS-L in April 2013, and NASA
     launched the satellite as scheduled in January 2014. However, in November 2013, while
     building TDRS-M, Boeing discovered quality problems with the power divider units that
     the company had also installed on TDRSs 11 and 12.17 To evaluate the risk of not
     replacing the divider units, Boeing performed an accelerated life test on the TDRS-M
     units and concluded they posed little risk.18 In addition, TDRS-11 showed no sign of
     degraded payload performance after 8 months in space and hundreds of passes with
     spacecraft. Accordingly, Boeing decided and NASA agreed not to replace the divider
     units on TDRS-L and proceeded with the launch in January 2014. Boeing and NASA
     will spend the next several months performing on-orbit testing of TDRS-L. Once the
     Network accepts delivery, the Agency will rename the satellite TDRS-12 and use it as a
     spare. As a precaution, Boeing replaced the faulty power divider units on the TDRS-M.

     TDRS-M. NASA exercised the option to purchase TDRS-M in 2011 and Boeing is on
     schedule to complete development in June 2015. NASA had planned to launch TDRS-M
     as early as December 2015, but due to insufficient funding has not procured a launch
     vehicle for the satellite.19 NASA officials state it normally takes 2.5 to 3 years to procure


     16
          NASA is responsible for paying the additional costs, and as of the date of this report, continues to
          negotiate a final price.
     17
          Power divider units are microwave passive components that distribute the uplinked frequency reference
          signal from White Sands Complex to the frequency converters in the TDRSs. Microwave passive
          devices are high-reliability parts routinely used in communications spacecraft where redundancy is not
          practical. If these devices failed while in orbit, TDRS telecommunications services could be affected.
          The number of services affected is a function of the particular device in question and will range from
          losing redundancy to failure of an affected communication service.
     18
          NASA completed this test on December 17, 2013. Reliability calculations using empirical data and
          conservative failure rates showed the impact to TDRS spacecraft reliability to be less than 1 percent (less
          than 0.01percent) over a 15-year mission life.
     19
          The third-generation TDRSs were designed to be launched on an Atlas V or Delta IV launch vehicle.
          However, a Falcon 9V1.1 launch vehicle is another option, but could require the Project to make changes
          to the satellite. An approximate cost of a Falcon 9V1.1 is not available because NASA has yet to award
          a mission for that vehicle, but in December 2013, NASA procured an Atlas V with related launch
          services for about $160 million in support of a science mission.



10                                                                                            REPORT NO. IG-14-018
RESULTS



   a launch vehicle and prepare it for launch. Consequently, NASA will not meet the
   December 2015 launch date and, according to Agency officials, is considering delaying
   the launch until the early 2020s.

   NASA’s contract with Boeing has provisions for up to 2 years of additional storage for
   TDRS-M beyond 2015 at a cost of $10 million. If NASA delays the launch beyond that
   date, it is likely to incur additional costs. NASA has directed Boeing to examine the
   technical and cost implications of extended storage.

   TDRS-N. NASA did not pursue its option under the Boeing contract to purchase
   TDRS-N for $262 million because, according to SCaN Program officials, it did not have
   adequate funds available. Accordingly, no additional TDRSs are in development and
   NASA will need to enter into a new contract to acquire additional satellites in future
   years. The cost to NASA when it commissions the next satellite is likely to be far more
   than $262 million. An analysis of the Boeing contract shows that the company
   underestimated the cost of building TDRSs K and L by approximately $110 million –
   costs that could not be passed on to NASA under its fixed-price contract with the
   company. Prices under any new contract would likely take into consideration the cost
   overruns experienced on TDRSs K and L.

SGSS Development to Cost More and Take Longer Than Planned
   The cost to NASA of developing the SGSS Project is likely to exceed the Agency’s
   baseline commitment by $329 million, or approximately 38 percent. Additionally, final
   acceptance of the SGSS Project by NASA may not occur until February 2019, more than
   1.5 years from the originally scheduled June 2017 date. The cost overrun will press
   SGSS Project Managers to reassess requirements and the 1.5-year schedule slip will
   require the Space Network to reassess, reprioritize, and mitigate the Network’s
   obsolescence risks for a longer period than anticipated – actions that will require
   additional funding. Moreover, although the amount of operations and maintenance
   savings NASA expects to achieve through implementation of the SGSS Project is still
   unclear, this savings will be delayed for several years.

   Agency Commitment Based on Flawed SGSS Cost and Schedule Estimates. The
   SGSS Project and its contractor underestimated the level of effort needed to meet
   software requirements for the upgraded system. The Project held its Preliminary Design
   Review in July and September 2012 and accepted the contractor’s flawed estimate and
   established insufficient reserves to cover identified risks before proceeding to key
   decision point (KDP) C in February 2013.20 During the KDP C process, NASA and the
   Standing Review Board performed a joint cost and schedule confidence level review

   20
        A preliminary design review requires a project to demonstrate planning, technical, cost, and schedule
        baselines are complete and consistent and preliminary design complies with requirements. KDP C is
        based on the results of the preliminary design review and signifies that a project is sufficiently mature to
        begin implementation and the cost and schedule are adequate to enable mission success with acceptable
        risk.



REPORT NO. IG-14-018                                                                                                   11
                                                                                                                RESULTS



     using the flawed estimates and insufficient reserves, which helped form the basis of the
     Agency’s baseline commitment to complete the Project.21 The Review Board reviewed
     the data and recommended the Project continue into implementation, but noted that
     uncertainty with the contractor’s software development productivity had potential for cost
     growth. Nonetheless, NASA committed funding to meet the SGSS Project Office’s
     estimated life-cycle costs of $862.6 million and agreed to a final acceptance date of
     June 2017.22

     NASA assumed that General Dynamics’ very good cost and schedule performance
     achieved during the preliminary design phase was a predictor of continued performance.
     However, during the SGSS Project’s review of the contractor’s performance prior to the
     Critical Design Review in June 2013 – the first milestone review after KDP C – the
     Agency discovered that General Dynamics had based the cost and schedule estimates
     accepted at the Preliminary Design Review and KDP C on flawed assumptions.23
     Specifically, the joint confidence level cost and schedule calculations used to develop the
     baseline commitment were significantly understated, did not adequately account for risks
     associated with software development, and made unrealistic schedule assumptions. For
     example, after the June 2013 Critical Design Review the SGSS Project found that
     General Dynamics’ estimated productivity assumptions for software development were
     unachievable when compared to industry standards and the company used metrics from
     another of its projects – the U.S. Navy’s Mobile User Objective System – as a baseline
     for SGSS software development.24 However, the Navy project is significantly smaller
     and less complex than SGSS. In addition, General Dynamics did not appropriately
     account for the risk that it might not achieve expected productivity improvements and
     assumed it would perform major activities in parallel. For example, the company
     planned to have personnel available to begin to assemble hardware and to write, review,
     and test custom software all before the critical design was complete. However, it had to
     delay these activities because personnel were still resolving design issues and could not
     proceed to the other tasks as originally planned. These software and schedule challenges
     could ultimately result in costly hardware design and requirement changes throughout the
     system – costs that would be passed on to NASA under its cost-plus contract with the
     company.



     21
          Joint confidence levels are the probability that the cost and schedule will be equal to or lower than
          estimates. A standing review board conducts independent review of a project and provides objective,
          expert judgments to the authorities. The SGSS Standing Review Board’s joint confidence estimates at
          the 70 percent level were 5 percent higher and 6 months longer than the Project’s estimates.
     22
          In an effort to manage costs, the SCaN Program funded the SGSS Project at the Project’s 50 percent joint
          confidence level ($832 million) and held the balance of the $862.6 million (70 percent joint confidence
          level) as management reserves at the SCaN Program level. The Agency was 70 percent confident that
          SGSS costs would be $862.6 million or lower and final acceptance would be on or before June 2017.
     23
          Critical Design Review determines if a project is still on track with acceptable risk and is within the
          agency baseline commitment.
     24
          The Mobile User Objective System provides communications and control interfaces between Mobile
          User satellites and existing and future Department of Defense terrestrial communication networks.



12                                                                                             REPORT NO. IG-14-018
RESULTS



   Updated Estimate and Replan Exceed Agency Commitment. After the Critical
   Design Review, SGSS Project officials directed General Dynamics to update its cost
   estimate. In September 2013, the company presented the Project with an updated
   estimate projecting a $309.7 million cost increase and an approximately 1-year delay to
   May 2018. In November 2013, the Project Office reviewed this estimate and identified
   an additional $50 million in cost growth, bringing the expected overrun to about
   $360 million. Given the additional risks, SGSS Project officials estimated the Project
   would cost about $1.2 billion rather than the initially promised $862 million and would
   not be complete until July 2019.

   In response to the cost and schedule overruns, the SCaN Program, in conjunction with the
   Associate Administrator for the Human Exploration and Operations Mission Directorate,
   directed the SGSS Project to develop a replan that

          changes the development approach to improve cost and schedule performance,
          implements mitigations to risks identified against the updated estimate,
          limits costs to the current FY 2014 and FY 2015 available funding, and
          proposes scope reductions to reduce costs while maintaining the minimum
           success criteria.

   Results of Replan. In March 2014, the SGSS Project presented the results of the replan to
   the SCaN Program. The replan provided management with immediate reductions in costs
   and schedule and options for further reductions. The SGSS Project was able to reduce its
   November 2013 estimates by $31.2 million and recovered 5 months in the schedule to
   February 2019. The reduction in the cost and schedule was the result of additional
   efficiencies the Project gained from better understanding its risks in the November 2013
   estimate despite the negative effect in the contractor’s cost from pushing work into
   FY 2016 because the Agency proposes to limit funds in FYs 2014 and 2015. Even with
   these reductions, the SGSS Project cost and schedule estimates continue to exceed the
   Agency Baseline Commitment Agreement by $328.5 million, or 38.1 percent, and by
   more than 1.5 years. Further, the Project also stated that if the planned funding levels for
   FY 2016 were not available, there would be additional cost growth and schedule
   expansion. Table 2 provides details on these projections.




REPORT NO. IG-14-018                                                                              13
                                                                                                              RESULTS



               Table 2. Cost and Schedule Growth Areas between Agency Baseline Commitment
                           Agreement and Updated Estimate (Dollars in Millions)
                                                                                                    Percentage of
                                      Estimate at             Updated
                                                                               Cost/Schedule         Total Cost
            Growth Areas            Agency Baseline           Estimate
                                                                                 Growth               Growth
                                     Commitment               Amount
                                                                                                      (38.1%)
         Schedule expansion             $ 14.5                 $ 72.5              $ 58.0              17.7%
         Software                         99.6                  148.5                48.9              14.9%
         Materials                        88.0                  141.7                53.7              16.3%
         Directed design
         changes                           35.0                    63.2               28.2                8.6%
         Pending design
         changes                            0.0                   15.0               15.0                 4.6%
         Othera                           305.2                  411.1              105.9                32.2%
         Contractor feeb                   65.3                   65.3                0.0                 0.0%
         Project office cost,
         risks, and reserves              255.0                 305.0                50.0                15.2%
         Replan estimate                    0.0                  (31.2)             (31.2)               (9.5%)
                  Total                  $862.6              $1,191.1              $328.5c
         Final acceptance
         review date                    June 2017          February 2019                     20 months
     a “
         Other” includes all other costs that could not be aligned with a specific growth area such as the effect of
         poor contractor performance throughout the contract.
     b
         Contractor fee is based on the current contract value and does not include fee on cost growth.
     c
         Cost growth was 38.1 percent over the Agency Baseline Commitment.
     Source: OIG analysis of SGSS Project data.


     During the replan, SGSS presented options for the SCaN Program to consider that could
     further reduce the cost of the SGSS Project. For example:

               NASA could agree to reduce capacity at the White Sands Complex by deferring
                an additional antenna and associated TDRS service capability. When funds
                become available, NASA would have an option to have the work performed by
                the Space Network’s maintenance and operations contractor or a third party
                contractor.
               The Agency could also agree to defer the implementation of SGSS at the Guam
                ground terminal and add the work back as an option on the SGSS contract for
                implementation at a specified trigger date.

     The SGSS Project is awaiting further direction from SCaN Program officials before
     presenting recommendations to the Associate Administrator in May 2014.




14                                                                                            REPORT NO. IG-14-018
RESULTS



   SGSS Delay Will Require Additional Funding to Mitigate the Space Network’s
   Obsolescence Risks. Obsolescence of the Space Network’s ground segment hardware
   and software has made sustainment and maintenance increasingly difficult and costly.25
   As a result, the Space Network only replaces those components and subsystems it deems
   necessary to keep the system operating until the SGSS Project upgrade is completed.
   However, the 1.5-year delay in the schedule for final acceptance of the SGSS Project will
   require the Space Network to reassess and reprioritize its obsolescence risks and
   necessitates additional funding to mitigate those risks. For example, after KDP C, the
   Space Network estimated that a 6-month delay in delivery (from June 2017 to
   December 2017) would require the Network to spend an additional $3.8 million to
   address and mitigate obsolescence risks. An additional 14-month delay would increase
   both these costs and the risk that the Space Network will be unable to accommodate
   future missions. For example, SGSS upgrades were to provide capability to the Network
   for support and testing of the Agency’s first exploration mission of the Space Launch
   System leading up to the scheduled FY 2018 launch.26 The mission requires new
   services that the Space Network currently does not provide. An SGSS delay would
   require the Network to obtain additional funds in the near-term to provide the services to
   support the mission.

   The Space Network was also counting on reduced annual operations and maintenance
   costs after implementation of the upgraded SGSS system. For example, as part of the
   SGSS Project’s Critical Design Review, General Dynamics claimed that once the Project
   is fully operational NASA will be able to reduce a subset of the White Sands Complex
   operations staff by 58 percent from 304 to 129 full time equivalent staff performing
   similar operations functions. While NASA has not confirmed whether the new SGSS
   architecture will achieve this level of reduction, the 1.5-year schedule slippage will delay
   realization of any savings.

   Accurate SGSS Project Costs, Schedule, and Funding Still Needed. NASA’s
   Authorization Act of 2005 requires the Agency to report to the House Committee on
   Science and the Senate Committee on Commerce, Science, and Transportation if
   development cost is likely to exceed by 15 percent or more or be delayed by six or more
   months beyond the Agency’s baseline commitment development cost and schedule.27
   The Act requires NASA to explain the increase or delay and the actions it plans to take as
   a result. In addition, if development costs are likely to exceed 30 percent of the baseline
   commitment, beginning 18 months after NASA’s report the Agency is forbidden from
   expending funds other than termination costs on the program unless Congress has
   authorized its continuation. NASA policy also requires that a project be “rebaselined”

   25
        Obsolescence risks include sustainment of the ability to control and monitor one or more of the TDRSs
        and information security issues.
   26
        The Space Launch System will carry an uncrewed Orion vehicle into space for a 25-day journey beyond
        the Moon and back to Earth.
   27
        Public Law 109-155, “National Aeronautics and Space Administration Authorization Act of 2005”
        (December 30, 2005). In accordance with the Act, a major program is defined as “an activity approved
        to proceed to implementation” that has an estimated life-cycle cost of more than $250 million.



REPORT NO. IG-14-018                                                                                            15
                                                                                                              RESULTS



     and the joint confidence level be recalculated and approved when estimated development
     costs exceed the baseline commitment by 30 percent or more.28 In addition, SCaN’s
     Program Plan requires that the SGSS Project pass a termination review prior to any such
     rebaselining.29

     Because the SGSS Project’s development costs are expected to exceed NASA’s baseline
     cost and schedule commitments for the Project by 38 percent and 20 months, the Agency
     is required to report this information to Congress and perform a termination review. In
     March 2014, the Agency formally notified Congress that the Project may exceed its
     baseline development estimate by more than 15 percent and/or its schedule estimate by
     6 months. In addition, the Agency indicated that it is considering redefining the SGSS
     effort as a sustainment rather than a development activity and is developing a replan for
     the Project that it expects to complete in June 2014. According to SCaN Program
     officials, reclassifying SGSS as a sustainment effort would allow greater flexibility with
     respect to funding and other programmatic issues. As of March 2014 the Agency had not
     initiated a termination review of the Project.

     Actions Taken by the Agency. The SGSS Project is working with General Dynamics to
     better align the revised cost estimate – currently $1.19 billion – with SCaN’s ability to
     fund the Project. Because the replan may defer scope in the Project, we are concerned
     that any retrenchment may be shortsighted and result in a failure to upgrade SGSS in a
     way that makes long-term sense for ensuring the SCaN Program’s capabilities. This
     could lead to important capability gaps that are exacerbated by pushing out upgrades to a
     point in the future when costs are significantly higher. In addition, we are concerned that
     removing work from the SGSS contract only to transfer the work to another contractor
     might, in substance, be transferring costs and schedule without real savings.




     28
          NASA Procedural Requirements (NPR) 7120.5E, “NASA Space Flight Program and Project
          Management Requirements, w/Changes 1-10,” August 14, 2012. Rebaselining is a process that
          recalculates the original estimated cost and schedule and results in a change to the project’s Agency
          Baseline Commitment. The project’s future performance is then compared to the new baseline.
     29
          SCaN “Program Plan” (December 14, 2011). A termination review is performed to determine whether to
          continue or terminate a project.



16                                                                                           REPORT NO. IG-14-018
RESULTS




                                         SHORTSIGHTED PLANNING RESULTED IN
                                          INADEQUATE FUNDING FOR THE SPACE
                                                                  NETWORK

              Because of budget reductions and other lost revenue, beginning in FY 2016 the
              Space Network will not have sufficient funding to meet all planned commitments for
              services, including supporting integration of the SGSS Project into the Space
              Network. Beginning in FY 2014, the SCaN Program reduced the Space Network’s
              proposed operating budget from $115 million to $85 million. Moreover, although
              NASA agreed to provide free access to Space Network services for some customers
              beginning in FY 2014 in exchange for their earlier contributions to the design and
              development of TDRSs K and L, it failed to adequately plan for the resulting
              approximately $70 million per year in lost revenue. Consequently, the Space
              Network Project has a projected $63 million budget shortfall in FY 2016 and even
              larger estimated shortfalls in subsequent years.

   The Space Network does not charge NASA missions for its services. However, it
   charges other Federal and private sector customers on a reimbursable basis. Until this
   year, the Space Network collected approximately $70 million per year in reimbursable
   funding from these external customers and was largely self-sustaining. However, in
   2006, NASA entered into a cost sharing arrangement with some of its customers to
   defray development costs for TDRSs K and L. In exchange for this up-front contribution,
   NASA agreed not to charge those customers for Space Network usage for 25 years – an
   estimated value of $1.8 billion. However, NASA failed to develop a plan for replacing
   the lost revenue. The reasons for this failure are unclear because the Agency no longer
   has the documentation supporting the cost sharing decision and the personnel involved in
   the decision have left NASA.

   The Space Network also faces additional budget reductions. Until FY 2014, the Space
   Network operated on an annual budget of at least $115 million from both reimbursable
   and direct funding. However, beginning in FY 2014 the SCaN Program Office requested
   the Network reduce its operating budget to $85 million as the SCaN Program attempted
   to balance its portfolio of projects within its overall budget.30 The Space Network has
   found some ways to cut costs – for example, by reducing operations and maintenance
   staffing. In addition, during the course of our audit the Space Network reached an
   agreement with some of the customers that could be covered under the free Network
   usage arrangement to contribute to operating costs. These actions addressed the
   projected budget shortfalls for FY 2014 and most of FY 2015. However, without further
   changes, beginning in FY 2016 the Space Network will face a projected $63 million
   budget shortfall, with larger shortfalls in subsequent years.

   30
        In addition to the Space Network and the associated replenishment projects, the SCaN Program is
        responsible for the Deep Space Network and the Near Earth Network.



REPORT NO. IG-14-018                                                                                      17
                                                                                                            RESULTS



     Although the Space Network expects to be able to support its day-to-day operations
     under current projected budgets through FY 2015, unless it secures additional funding,
     Network officials stated they will have to delay integration of SGSS into the Network,
     defer training of key technical staff and needed repairs and maintenance of obsolete
     hardware and facilities, and eliminate its support to the Network Integration Management
     Office.31 More notably, according to officials the Space Network will have to shut down
     significant, if not all, operational capacity and therefore be unable to meet customer
     commitments necessary to provide science and basic health and safety.

Conclusion
     NASA’s Space Network is a critical component of the Agency’s space communications
     and navigation capability and provides essential services to other Government and
     commercial customers. Moreover, the recent decision to extend International Space
     Station operations until at least 2024 will add to the demand for communications
     provided by the Network. The success of the Network depends upon a complex system
     of satellites and ground terminals, and ensuring continued service for existing and
     planned missions requires maintenance, replenishment, and modernization of both the
     TDRSs and ground stations.

     The Space Network needs six operating satellites and a spare TDRS in on-orbit storage to
     provide the needed level of service. When Blossom Point becomes operational, the
     Network will expand to seven operational TDRSs. While the Network currently has nine
     TDRSs in orbit (six active, two in storage, and one in testing), four of these satellites
     have been in orbit for 18 or more years and are rapidly reaching the end of their useful
     lives (TDRSs 3, 5, 6, and 7). Moreover, within the next 4 years three other satellites will
     have been in operation for 15 years or longer (TDRSs 8, 9, and 10). Failure to replace
     these aging satellites in a timely manner increases the risk that the Space Network will be
     unable to provide adequate communication and navigational services to support its
     customers.

     Similarly, the Space Network’s ground terminals are expensive to maintain and rapidly
     wearing out. As such, the ability of the Network to continue to provide reliable
     communications services to customer missions hinges on the successful development of
     the SGSS Project that will replace aging ground hardware and expensive-to-maintain
     equipment. Given the central role the SGSS Project plays in the Agency’s continued
     ability to provide space communications and navigation capabilities, it is imperative that
     NASA develop a realistic and achievable plan to address the $329 million cost overage
     and 1.5-year schedule slippage in an effort to meet the Project’s revised cost, schedule,
     and performance goals.
     31
          The Space Network provides funding for requirements gap resulting from the ongoing SGSS system
          upgrade, as well as to integrate and train its personnel for the transition to the upgraded system. The
          Network Integration Management Office provides options, analysis, planning, and testing assistance, as
          well as network integration, to meet customers' technical and budgetary requirements. The Office can
          coordinate support from service providers throughout NASA, as well as U.S. agencies, foreign
          governments, and U.S. commercial entities.



18                                                                                          REPORT NO. IG-14-018
RESULTS



Recommendations, Management’s Response, and Evaluation of
  Management’s Response
   To ensure NASA meets resource requirements for the Space Network Project, we
   recommended the Associate Administrator for Human Exploration and Operations do the
   following:

   Recommendation 1. Reevaluate the SGSS Project for KDP C authority and ensure the
   Project is funded at the required levels for success. At a minimum, (a) require the SGSS
   Project Office to complete a revised and realistic cost estimate with revised joint
   confidence levels and evaluate the revised estimates for KDP C success criteria and (b)
   evaluate the results of the revised KDP C estimates and adjust the SGSS Project baseline
   and Agency baseline commitment as necessary.

      Management’s Response. The Associate Administrator concurred, stating that the
      SGSS contractor has provided a new cost and schedule estimate, which NASA is
      evaluating against anticipated budget and program requirements to determine a way
      forward. He further stated that as the Agency develops its FY 2016 budget request
      and receives its final FY 2015 appropriation it will adjust the SGSS baseline as
      appropriate. The Associate Administrator anticipates completion of these actions by
      October 31, 2014 contingent upon passage of the final FY 2015 appropriation.

      Evaluation of Management’s Response. Management’s proposed actions are
      responsive to our recommendation. Therefore, we consider the recommendation resolved
      and will close it upon receipt and verification of those actions.

   Recommendation 2. Report the appropriate baseline commitment and/or status to
   Congress.

      Management’s Response. The Associate Administrator concurred, stating the SCaN
      Program will follow Agency guidelines and work with the Office of Legislative and
      Intergovernmental Affairs to report to Congress as needed. The Associate
      Administrator anticipates completion of this action by October 31, 2014.

      Evaluation of Management’s Response. Management’s proposed actions are
      responsive to our recommendation. Therefore, we consider the recommendation resolved
      and will close it upon receipt and verification of those actions.

   Recommendation 3. Ensure that the SGSS Project passes a termination review prior to
   any rebaselining.

      Management’s Response. The Associate Administrator partially concurred, stating
      that NASA is working to determine whether it should manage the SGSS Project as a
      development or sustainment activity and will factor that determination into the
      decision on the way forward. He also indicated that the SCaN Program will follow
      Agency guidelines for rebaselining. However, he said that while contracts and


REPORT NO. IG-14-018                                                                          19
                                                                                        RESULTS



        discrete projects may be terminated if warranted, maintenance and upgrade of the
        Space Network ground system is not optional. The Associate Administrator
        anticipates completion of these actions by October 31, 2014.

        Evaluation of Management’s Response. While we agree that given its importance
        the Agency must continue to maintain and upgrade the Space Network ground
        system, we believe a termination review should be conducted irrespective of whether
        NASA decides to manage the Project as a “development” or “sustainment” activity to
        ensure the Agency’s senior leadership and external stakeholders are fully aware of the
        factors that influenced the Project’s cost, schedule, and performance issues.
        Accordingly, we consider the recommendation unresolved.

     Recommendation 4. Examine options to increase funding for the Space Network,
     including acquiring funds from other less critical priorities within the Agency.

        Management’s Response. The Associate Administrator concurred, stating that
        SCaN continues to seek reimbursable customers to reduce the burden on the Agency.
        He also indicated that NASA will balance resources across its programs to assure
        effective, continuous Space Network operations and sustainment. Finally, he stated
        that NASA will present its funding proposal for FY 2016 to the Office of
        Management and Budget in the September 2014 timeframe and will provide that
        information to the OIG. The Associate Administrator anticipates completion of these
        actions by December 31, 2014.

        Evaluation of Management’s Response. Management’s proposed actions are
        responsive to our recommendation. Therefore, we consider the recommendation resolved
        and will close it upon receipt and verification of those actions.




20                                                                         REPORT NO. IG-14-018
RESULTS




                                                                            OTHER MATTERS

   In September 2010, we reported that NASA had not updated the rates it charged
   customers for use of the Space Network for over 4 years.32 We recommended that NASA
   annually update the rates in order to reflect current operating costs. The Agency
   concurred with our recommendation and agreed to update the methodology used to
   calculate the rates and revise them annually. In November 2012, NASA published the
   rates for FY 2013. Since 2009, between 9 and 13 customers have used Space Network
   assets each fiscal year and reimbursed the Agency between $2.1 and $3.1 million.

   NASA had not updated the rates for FY 2014 and, as of March 2014, continued to charge
   FY 2013 rates that may not accurately capture current operating costs. As a result, NASA
   may be absorbing costs for services used by other Federal agencies and commercial
   customers. NASA officials attributed the failure to update the rates to the absence of the
   staff member who developed the FY 2013 rates. During this audit, NASA officials began
   developing a methodology to revise the rates. Based on historical usage rates, 10 customers
   could utilize the Space Network in FY 2014 enabling NASA to collect nearly $3 million in
   reimbursements based on the 2013 rates.

Recommendation, Management’s Response, and Evaluation of
  Management’s Response
   In order to reflect current operating costs and maximize revenue potential, we
   recommended the Deputy Associate Administrator for SCaN:

   Recommendation 5. Document the cost factors and formulas used for reimbursable
   rates and ensure those rates are reevaluated and new rates set on an annual basis.

          Management’s Response. The Deputy Associate Administrator concurred and
          published FY 2014 rates effective April 11, 2014.

          Evaluation of Management’s Response. Despite the Deputy Associate
          Administrator’s concurrence and the publication of new rates, NASA has not
          established a process to document cost factors and formulas and ensure annual rate
          adjustments. Accordingly, we do not consider management’s actions fully responsive
          and the recommendation remains unresolved.




   32
        NASA OIG “Review of NASA’s Tracking and Data Relay Satellite System” (IG-10-023,
        September 21, 2010).



REPORT NO. IG-14-018                                                                           21
                                                                                     APPENDIXES




                                                                            APPENDIX A


Scope and Methodology

     We performed this audit from August 2013 through March 2014 in accordance with
     generally accepted government auditing standards. Those standards require that we plan
     and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
     basis for our findings and conclusions based on our audit objectives. We believe that the
     evidence obtained provides a reasonable basis for our findings and conclusions based on
     our audit objectives.

     In May 2013, we initially announced an audit of the SCaN Program. During the audit,
     we decided to review each of the Networks separately. In doing so, we narrowed our
     scope of this audit to include controls and management of the Space Network, TDRS, and
     SGSS projects. For this review, we performed audit fieldwork at NASA Headquarters,
     Goddard, and the White Sands Complex.

     To accomplish the review, we identified and reviewed laws, regulations, policies,
     procedures, and controls pertaining to the management of the Space Network Project and
     its related projects. Specifically, we reviewed NASA Authorization Act of 2010,
     S. 3779, January 5, 2010; NASA Authorization Act of 2008, H. R. 6063, January 3,
     2008; Public Law 109-155, NASA Authorization Act of 2005, S. 1281, December 30,
     2005; and Title 14 of the Code of Federal Regulations, Part 1215.

     To understand NASA’s contract policies and their implementation of that policy, we
     reviewed NPR 7120.5E, “NASA Space Flight Program and Project Management
     Requirements, with Change 1,” August 14, 2012; NPR 7123.1B, “NASA Systems
     Engineering Processes and Requirements,” April 18, 2013; NPR 8000.4A, “Agency Risk
     Management Procedural Requirements,” December 16, 2008; and NPR 9090.1A,
     “Reimbursable Agreements,” February 25, 2013.

     To accomplish our review of the processes used to manage the Space Network and its
     key component projects, we interviewed NASA Headquarters officials within the SCaN
     Program and officials for the Space Network Project Office, SGSS Project Office, and
     the TDRS Project Office at Goddard and White Sands Complex.




22                                                                         REPORT NO. IG-14-018
APPENDIX A



   During fieldwork, we reviewed Space Network reimbursable agreements; Plan of Action
   and Milestone Items and Risk Acceptance; SGSS Quarterly Financial Reports for
   March 2011 through September 2013; and the available, earned, and paid award fees on
   the SGSS contract.

   Use of Computer-Processed Data. We used computer-processed data to perform this
   audit. Specifically, we reviewed budget data, service level agreements, SGSS contract
   requirements and modifications, contractor quarterly financial management reports
   schedule reports, and the contractor’s award fee data. In addition, we reviewed TDRS
   planned schedules and NASA’s reimbursable rates. Generally, we concluded that we
   could rely upon this data, except as discussed in the results section of this report.

Review of Internal Controls

   We evaluated internal controls, including Federal laws, the Code of Federal Regulations,
   and NASA policies and procedures and concluded that the internal controls were
   adequate, except in specific circumstances, as discussed in the body of this report. Our
   recommendations, if implemented, should correct the weaknesses identified.

Prior Coverage

   During the last 5 years, NASA OIG and the Government Accountability Office (GAO)
   have issued two reports of particular relevance to the subject of this report. The
   unrestricted reports can be accessed over the Internet at
   http://oig.nasa.gov/audits/reports/FY10/index.html and http://www.gao.gov, respectively.

   NASA Office of Inspector General
   “Review of NASA’s Tracking and Data Relay Satellite System” (IG-10-023,
   September 21, 2010)

   Government Accountability Office
   “NASA: Assessments of Large-Scale Projects” (GAO-13-276SP, April 17, 2013)




REPORT NO. IG-14-018                                                                          23
                      APPENDIX B




     MANAGEMENT COMMENTS




24            REPORT NO. IG-14-018
APPENDIX B




REPORT NO. IG-14-018   25
             APPENDIX B




26   REPORT NO. IG-14-018
APPENDIX C




                                                      REPORT DISTRIBUTION

National Aeronautics and Space Administration

   Administrator
   Associate Administrator
   Chief of Staff
   Chief Technologist
   Associate Administrator, Human Exploration and Operations Mission Directorate
   Deputy Associate Administrator, Space Communications and Navigation Program
   Director, Goddard Space Flight Center
     Associate Director, Exploration and Space Communications Division
     Project Manager, Network Integration Management Office
     Project Manager, Space Network Project
     Project Manager, Space Network Ground Segment Sustainment Project
     Project Manager, Tracking and Data Relay Satellite Project

Non-NASA Organizations and Individuals

   Office of Management and Budget
      Deputy Associate Director, Energy and Science Division
          Branch Chief, Science and Space Programs Branch
   Government Accountability Office
      Director, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

   Senate Committee on Appropriations
      Subcommittee on Commerce, Justice, Science, and Related Agencies
   Senate Committee on Commerce, Science, and Transportation
      Subcommittee on Science and Space
   Senate Committee on Homeland Security and Governmental Affairs
   House Committee on Appropriations
      Subcommittee on Commerce, Justice, Science, and Related Agencies
   House Committee on Oversight and Government Reform
      Subcommittee on Government Operations
   House Committee on Science, Space, and Technology
      Subcommittee on Oversight
      Subcommittee on Space




REPORT NO. IG-14-018                                                               27
Major Contributors to the Report:
   Ridge Bowman, Director, Space Operations
   Loretta Atkinson, Project Manager
   Barbara Moody, Team Lead
   Eugene Bauer, Auditor
   Jim Griggs, Auditor
   Michael Palinkas, Management Analyst
   Chris Reeves, Information Technology Specialist
   Earl Baker, Legal Counsel




REPORT NO. IG-14-018                                 29
                                                                                   APRIL 29, 2014
                                                                    REPORT NO. IG-14-018




                                                                            OFFICE OF AUDITS

                                                            OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY14/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
